                                                                     Issue Date
                                                                           January 24, 2012
                                                                     Audit Report Number
                                                                            2012-AT-1006




TO:         Ada Holloway, Director, Atlanta Office of Public Housing, 4APH

            Craig Clemmensen, Director, Departmental Enforcement Center, CV


            //signed//
FROM:       James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT: The Housing Authority of the City of Sparta, GA, Did Not Maintain Adequate
          Control Over Its Federal Funds


                                     HIGHLIGHTS

 What We Audited and Why


             We audited the Housing Authority of the City of Sparta, GA’s financial
             operations. We selected the Authority based on concerns from the Georgia State
             Office of Public Housing regarding its financial conditions. Many reviews of the
             Authority performed by the U.S. Department of Housing and Urban Development
             (HUD) noted consistent misuse of its operating funds over the past 4 years.

             Our audit objective was to determine whether the Authority complied with HUD
             regulations regarding the management of its financial operations.

 What We Found


             The Authority used $524,916 in Federal funds to pay ineligible and unsupported
             costs. It did not establish effective controls to protect its assets. Its board did not
             ensure that the former executive director expended funds in accordance with
             Authority and HUD requirements and followed procurement policies. This
             condition occurred because the former executive director controlled all
           expenditure functions. As a result, funds were not available to improve the living
           conditions of the Authority’s units as intended, and the Authority had no
           assurance that its purchases were the most economical for project operation.

What We Recommend


           We recommend that the Director of the Atlanta Office of Public Housing require
           the Authority to (1) repay its public housing operating and capital improvement
           programs for ineligible payments of $47,474 made to the former executive
           director, $19,833 to temporary workers, $5,374 for various purchases, and
           $54,453 to conflict-of-interest parties; (2) provide supporting documentation for
           payments of $75,313 made to the former executive director, $36,330 to temporary
           workers, $227,163 to contractors, and $58,976 for various purchases or repay its
           public housing operating and capital improvement programs; (3) review and
           implement internal controls for purchasing goods and services; and (4) reconcile
           its books and records to determine the amount of capital funds used for program
           expenses. We also recommend that the Director of the Departmental
           Enforcement Center, in coordination with the Director of the Office of Public
           Housing, take appropriate enforcement actions against the Authority officials
           responsible for the improper disbursements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed our review results with the Authority’s management and staff and
           HUD officials. We provided a copy of the draft report to the Authority on
           December 12, 2011, for its comments and discussed the report with Authority
           officials at the exit conference on December 19, 2011. The Authority provided
           written comments on January 10, 2012. It generally agreed with our findings.

           The complete text of the Authority’s response can be found in appendix B of this
           report.




                                            2
                           TABLE OF CONTENTS


Background and Objective                                                    4

Results of Audit
      Finding: The Authority Used More Than $520,000 in Federal Funds for   5
      Ineligible and Unsupported Costs

Scope and Methodology                                                       13

Internal Controls                                                           14

Appendixes
   A. Schedule of Questioned Costs                                          16
   B. Auditee Comments                                                      17




                                           3
                      BACKGROUND AND OBJECTIVE

The Housing Authority of the City of Sparta was established in accordance with State and
Federal law. The Authority’s primary objective is to provide decent, safe, and sanitary low-rent
housing for qualified citizens and communities of Sparta, GA.

The Authority’s dwelling units became available for occupancy on November 30, 1962, and
were previously managed by the Milledgeville Housing Authority. The City of Sparta assumed
management of the Authority on October 1, 2007. The Authority’s five-member board of
commissioners oversees the direction of the Authority. The mayor of Sparta appoints the board
of commissioners, which in turn selects an executive director. The board of commissioners is
responsible for managing the Authority’s daily operations.

The Authority administers 24 units of public housing. In April 2007, HUD revised its financial
management and reporting requiring Authorities to implement conversion to asset management.
However, Authorities that own and operate fewer than 250 units could convert to asset
management on a voluntary basis. We received confirmation from the HUD field office staff
and the Authority’s fee accountant that the Authority is not under asset management. Therefore,
the Authority is subject to the standard compliance requirements on administrative expenses
because it is not participating in the asset management program. The U.S. Department of
Housing and Urban Development (HUD) awarded the Authority $427,185 from October 2007 to
August 2011, which included $269,886 in operating subsidies and $157,299 in capital funds.

HUD’s Georgia State Office of Public Housing, located in Atlanta, GA, is responsible for
overseeing the Authority. Based on the Authority’s latest public housing assessment, HUD
designated it as a troubled public housing authority for fiscal year 2009.

Our audit objective was to determine whether the Authority complied with HUD regulations
regarding the management of its financial operations.




                                                4
                                RESULTS OF AUDIT

Finding: The Authority Used More Than $520,000 in Federal Funds for
Ineligible and Unsupported Costs
The Authority used $524,916 in Federal funds to pay ineligible and unsupported costs. It did not
establish effective controls to protect its assets. Its board did not ensure that the former
executive director expended funds in accordance with Authority and HUD requirements and
followed procurement policies. This condition occurred because the former executive director
controlled all expenditure functions. As a result, funds were not available to improve the living
conditions of the Authority’s units as intended, and the Authority had no assurance that its
purchases were the most economical for project operation.



 $524,916 Paid for Ineligible and
 Unsupported Costs

              We reviewed 100 percent of the Authority’s expenditures from October 2007 to
              August 2011 and identified $127,134 in ineligible costs and $397,782 in
              unsupported costs.

              Federal Regulation at 2 Code of Federal Regulations, Part 225 establishes
              principles and standards for determining the allowable costs incurred by State and
              local governments receiving Federal awards carried out through grants, cost
              reimbursement contracts, and other agreements. Basic guidelines stipulate that
              costs, to be allowable, must be necessary and reasonable for proper and efficient
              performance and adminstration of Federal awards. Federal Regulation at 2 Code
              of Federal Regulations, Part 225 also states that for costs to be allowable, they
              must be adequately documented.

              The consolidated annual contributions contract is a contract between HUD and
              the Authority that sets forth requirements applicable to all projects and additional
              requirements that apply to certain types of projects. Section 11(D) of the annual
              contributions contract states the Authority cannot incur any operating
              expenditures except pursuant to an approved operating budget.

              The former executive director approved and signed all disbursements. The
              Authority did not use its administrative employee for the separation of duties.
              The former executive director had complete control over the expenditure function.
              She prepared, signed, and coded the checks for accounting purposes. Although
              two signatures were required on the checks, the board trusted the former
              executive director with the daily disbursements of the Authority. Some board
              members signed blank checks that were given to them by the former executive


                                                5
           director without knowing how the checks would be used. Various board members
           stated that they were aware of their responsibility to review the expenditures of
           the Authority but felt that there was no need because they trusted the former
           executive director to review the expenditures. The Authority used a fee
           accountant to maintain the general ledger and the cash receipts and disbursements
           ledger. The fee accountant prepared the records based on information provided
           by the former executive director and concluded that the Authority was not
           financially stable. The fee accountant discussed the issues of overspending and
           not providing sufficient supporting documentation for expenditures with the
           former executive director, but the issues were not corrected by the Authority.

$122,787 in Ineligible and
Unsupported Costs Received by
Former Executive Director

           The former executive director abused her position and received $47,474 in
           Federal funds for ineligible payments for salary advances to herself and
           retirement and insurance payments that she was not entitled to receive. Also,
           there were no timesheets to support $75,313 paid to the former executive director.

           Section 2.6 of the Authority’s personnel policy states that no pay advances will be
           given. The Authority’s board members stated that they approved the expenses
           because they were not aware that the expenses were ineligible under HUD
           regulations.

$56,163 in Ineligible and
Unsupported Costs Received by
Temporary Employees

           The Authority employed many temporary workers. It paid temporary workers to
           perform the job of the maintenance mechanic while continuing to pay the
           maintenance mechanic his salary for the same functions. These workers received
           $19,833 in Federal funds for ineligible payments for the duplicated functions.

           In addition, temporary office workers received $36,330 in unsupported salary
           costs. The Authority either did not keep timesheets on the temporary employees
           or did not completely fill out the timesheets to identify the work performed.




                                            6
$227,163 in Unsupported Costs
Received by Contractors

            The Authority improperly procured goods and services totaling $227,163 from
            various individuals and suppliers. It did not document the procurement process it
            followed and did not provide support for the reasonableness and necessity of the
            procurements. The procurements included payments for landscape work,
            construction, accounting services, consulting services, and other items.

            The Authority established a written procurement policy consistent with HUD
            requirements; however, it did not implement working-level procedures to carry
            out the policy.

            HUD Handbook 7460.8, REV-2 stipulates that the Authority must conduct all
            procurement transactions in a manner providing full and open competition
            consistent with the standards established in Federal regulations at 24 Code of
            Federal Regulations 85.36. HUD requires the Authority to use its own
            procurement procedures, which reflect applicable State and local laws and
            regulations, provided that the procurements conform to applicable Federal law
            and the standards identified in this section. Authorities must maintain records
            sufficient to detail the significant history of procurements.

            The Authority did not document the bidding for purchases as required. Evidence
            did not support that the Authority obtained price quotes, sealed bids, or
            competitive proposals before making purchases. Supporting documents for these
            purchases were either nonexistent or did not show that the goods or services had
            been received by the Authority.


$64,350 Paid in Ineligible and
Unsupported Costs for
Miscellaneous Purchases

            The Authority paid $64,350 in ineligible and unsupported payments for various
            miscellaneous purchases. Ineligible payments of $5,374 were made for items
            such as late fees on utility bills and paying utility bills for tenants of the
            Authority. In addition, there was no supporting documentation for payments
            totaling $58,976.




                                             7
$54,453 Paid for Ineligible
Conflicts of Interest

            Part A of the consolidated annual contributions contract, section 14(B), provides
            that no funds of any project may be used to pay any compensation for the services
            of members of the Authority’s board.

            Section 19 (A)(1)(i), of the consolidated annual contributions contract, Conflict
            of Interest provides that the Authority cannot enter into any contract or
            arrangement with any present or former member or officer of the Authority’s
            governing board or any member of the officer’s immediate family.
            The Authority’s personnel policy states in section 1.5 that immediate relatives of
            Authority employees will not be hired without the prior approval of the executive
            director. Under no circumstances may such employees work under the
            supervision of relatives. Section 8.5 states that personal or family relationships
            between employees within the same work group will not be allowed to create the
            appearance of favoritism or otherwise affect the workplace.

            The Authority made $54,453 in ineligible payments to parties in conflict-of-
            interest relationships at the Authority. The Authority did not seek a HUD waiver
            of the conflict of interest hiring provisions. Examples of these payments follow:

                    The former board chairman received $11,989 in ineligible payments.
                    Although ineligible to receive any form of compensation, the former board
                    chairman was hired as an Authority employee.

                    The granddaughter of the former executive director was hired as an office
                    assistant and worked directly under the supervision of her grandmother.
                    She was paid $4,538 in ineligible payments.

                    The daughter of an Authority board member was hired by the Authority to
                    do office work. She received $34,893 in ineligible payments.

                    The brother of the Authority’s maintenance mechanic was hired to work
                    as a maintenance worker with his brother. He was paid $2,025 in
                    ineligible payments.

                    The girlfriend of the maintenance mechanic was hired by the Authority to
                    work within the same group. There was no evidence that the girlfriend
                    worked at the Authority, but she received a check from the Authority. She
                    was paid $1,008 in ineligible payments.




                                             8
Capital Funds Records Were
not Reconciled

         Section 9(C) of the consolidated annual contributions contract states that the
         Authority shall maintain records that identify the source and application of funds in
         which will allow HUD to determine that all funds are and have been expended in
         accordance with each specific program regulation and requirement.

         The Authority did not disclose the source year and type of grant fund, nor the type of
         grant fund and the use of the funds on its general ledger, journal entries or accounts
         payable vouchers. The Authority maintained one bank account for its capital and
         operating funds. The general ledger did not identify the source and application of the
         funds. Therefore, we were unable to determine if the $157,299 of capital funds were
         expended in accordance with program regulations and requirements.


Insufficient Controls


         The Authority did not have written policies or procedures for receiving or disbursing
         funds. While there were written policies in place for the Authority’s procurement
         process, these procedures were not followed by the Authority.

         The Authority had a five-member board of commisioners in place to oversee its
         actions. During our interviews with Authority employees and board members, it
         became clear that the former executive director had complete control over the
         Authority. Various board members explained that they entrusted the daily operations
         of the Authority to the former executive director and basically approved whatever the
         former executive director proposed. The board members received little if any training
         while holding their positions on the board. They were unaware of HUD regulations
         or their responsibility to monitor the actions of the former executive director. Some
         board members admitted to signing blank checks that the former executive director
         presented to them. The former executive director’s actions regarding the use of
         Authority funds were not monitored by anyone who was knowledgeable of HUD
         regulations.




                                              9
Conclusion


        Overall, the Authority did not establish the controls it needed to protect its assets. It
        did not ensure that its Federal funds were used for eligible, supported, housing-related
        activities that were reasonable and necessary for its operations. As a result, it did not
        comply with HUD regulations in regard to the management of its financial operations
        and disbursed checks totaling $524,916 for ineligible and unsupported expenses,
        when it only received $427,185 during the October 2007 to August 2011 timeframe.
        This occurred because the bank allowed the Authority to continue to write checks
        with a negative account balance.




                                             10
Recommendations


          We recommend that the Director, Office of Public Housing, require the Authority
          to

          1A.     Repay $47,474 from non-Federal funds to its public housing operating and
                  capital improvement programs for ineligible payments made to the former
                  executive director.

          1B.     Repay $19,833 from non-Federal funds to its public housing operating and
                  capital improvement programs for ineligible payments made to temporary
                  workers of the Authority.

          1C.     Repay $5,374 from non-Federal funds to its public housing operating and
                  capital improvement programs for ineligible payments made for various
                  purchases.

          1D.     Repay $54,453 to its public housing operating and capital improvement
                  programs for ineligible payments made to parties in conflict-of-interest
                  relationships.

          1E.     Support $75,313 in payments made to the former executive director or
                  repay from non-Federal funds any unsupported costs to its public housing
                  operating and capital improvement programs.

          1F.     Support $36,330 in payments made to temporary workers of the Authority
                  or repay from non-Federal funds any unsupported costs to its public
                  housing operating and capital improvement programs.

          1G.     Support $227,163 in payments made to contractors or repay from non-
                  Federal funds any unsupported costs to its public housing operating and
                  capital improvement programs.

          1H.     Support $58,976 in payments made for various purchases or repay from
                  non-Federal funds any unsupported costs to its public housing operating
                  and capital improvement programs.

          1I.     Review and implement internal controls to ensure that the Authority
                  complies with HUD procurement regulations and its own local
                  procurement policy approved by HUD and its board for purchasing goods
                  and services.

          1J.     Ensure that the board receives training and establishes procedures for
                  performing its oversight duties in a responsible manner.


                                           11
1K.    Reconcile its books and records to determine the amount of capital funds
       used for program expenses and repay from non-Federal funds any
       ineligible expenditures to the U.S. Treasury.

We also recommend that the Director of the Departmental Enforcement Center, in
coordination with the Director, Office of Public Housing,

1L.    Take appropriate enforcement actions against the Authority officials
       responsible for the disbursement of Federal funds in noncompliance with
       HUD requirements.




                               12
                        SCOPE AND METHODOLOGY

To accomplish our objective related to the management of the Authority’s financial operations,
we obtained financial statements and supporting documentation from October 2007 through
April 2011. We determined the data to be reliable. Our universe consisted of a 100 percent
review of the Authority’s expenditures from October 2007 to August 2011, which is the same
period during which the former executive director was employed by the Authority. During this
timeframe, the Authority received $157,299 in capital funds and $269,886 in operating subsidies
totaling $427,185, but our scope consisted of $689,688 in disbursed funds. We validated each
processed check from bank statements with supporting documentation provided by the Authority
to determine whether the disbursement was properly supported and an eligible expense.

In addition, we performed the following tasks:

       Interviewed Authority employees and HUD officials;
       Assessed whether HUD adequately monitored the performance of the Authority, related
       to its financial operations, by reviewing monitoring reports, quarterly reports, and
       financial review reports related to the Authority; and
       Reviewed reports issued by an independent auditor’s office, the Authority’s written
       policies and procedures, the Code of Federal Regulations, public laws, and other
       applicable legal authorities relevant to public housing operating subsidies.

Our audit period covered October 2007 through August 2011. We conducted our audit at the
Authority and the HUD Office of Inspector General’s (OIG) office in Atlanta, GA. We
performed our audit work between June and October 2011. We conducted the audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




                                                 13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

         Effectiveness and efficiency of operations,
         Reliability of financial reporting, and
         Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.




 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  Effectiveness and efficiency of operations - Policies and procedures that
                  management has implemented to provide reasonable assurance that a program
                  meets its objective, while considering cost effectiveness and efficiency.

                  Reliability of financial reporting - Policies, procedures, and practices that
                  management has implemented to provide reasonable assurance that financial
                  information is relevant, reliable, and fairly disclosed in reports.

                  Compliance with laws and regulations - Policies and procedures that
                  management has implemented to reasonably ensure that resources are used in
                  accordance with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing
               their assigned functions, the reasonble opportunity to prevent, detect, or correct
               (1) impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on
               a timely basis.



                                                14
Significant Deficiency


            Based on our review, we believe that the following item is a significant deficiency:

                The Authority did not adequately monitor its disbursements of Federal funds
                to ensure that payments were for eligible and supported housing activities (see
                finding).




                                             15
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                Recommendation             Ineligible 1/     Unsupported 2/
                        number
                     1A                        $47,474
                     1B                         19,833
                     1C                          5,374
                     1D                         54,453
                     1E                                           $    75,313
                     1F                                                36,330
                     1G                                               227,163
                     1H                       _______                  58,976
                      Total                  $127,134              $ 397,782


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             16
Appendix B

                        AUDITEE COMMENTS


Ref to OIG Evaluation         Auditee Comments




                               17
